No.
In the

Supreme Court of the United States
CANVS CORPORATION,

Petitioner,

v.
SECRETARY OF THE AIR FORCE,

Respondent.

-----------------------------------------ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

------------------------------------------

PETITION FOR WRIT OF CERTIORARI
------------------------------------------

Joseph J. Zito
Counsel of Record
DNL ZITO CASTELLANO
1250 Conn. Avenue, N.W.
Suite 700
Washington, DC 20036
(202) 466-3500
jzito@dnlzito.com
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ Richmond, VA 23219
804-249-7770 ♦ www.gibsonmoore.net

i
QUESTION PRESENTED
Can the Armed Services Board of Contract
Appeals, an administrative panel, deprive a
corporation of valuable intellectual property without
due process? Does due process require the ASBCA to
consider all evidence submitted at trial before
rendering an adverse judgement? Did the ASBCA's
(i) refusal to reach a determination on the "bundle of
rights" granted and (ii) the CAFC's refusal to consider
damages evidence deprive CANVS of due process?
Congress created the Small Business Innovation
Research (SBIR) program under the Small Business
Act of July 30, 1953, to "aid, counsel, assist and
protect, insofar as is possible, the interests of small
business concerns." (see: www.sba.gov) Petitioner,
CANVS, participated in the SBIR program and
developed highly proprietary hardware used to
advance the night time warfighting capabilities of
US service men and women. Petitioner received
awards of recognition for its Color Night Vision
Goggles.
Petitioner engaged in a contractual
agreement with the US government to allow the
government to implement CANVS technology to the
benefit of national defense, while ensuring that the
proprietary aspects of CANVS's technology would be
protected. The US Government not only failed to
protect CANVS's technology but actually displayed
the technology at an open forum. The government
admitted its open display of the technology in breach
of its contract, but denied liability alleging "no
damages."
Petitioner presented evidence to the
ASBCA, including damages evidence. However, the
ASBCA bifurcated the proceedings, excluded
damages evidence and then ruled against Petitioner
based upon a "lack of proof of damages."

ii
RELATED PROCEEDINGS
United States Court of Appeals for the
Federal Circuit 19-1190
CANVS Corporation v. Secretary of the Air Force
No. 19-1190 (January 9, 2019)
Armed Services Board of Contract Appeals
In Re: CANVS Corporation Contract No. USZA2203-0027
ASBCA Appeals
(September 15, 2018)

Nos.

57784

and

57987

iii
TABLE OF CONTENTS
Page:
QUESTION PRESENTED .......................................... i
RELATED PROCEEDINGS ...................................... ii
TABLE OF CONTENTS............................................iii
TABLE OF AUTHORITIES ....................................... v
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED ......................................... 2
INTRODUCTION ....................................................... 2
STATEMENT OF THE CASE.................................... 6
REASONS FOR GRANTING THE PETITION ....... 13
A. THE CONTRACT........................................... 13
B. ASBCA OPINION .......................................... 14
C. RELEVANT FACTS....................................... 17
D. IMPROPER DISCLOSURES IN THE
POSTER ......................................................... 18
CONCLUSION ......................................................... 19
APPENDIX:
Judgment
United States Court of Appeals
for the Federal Circuit
entered January 9, 2020 ................................ 1a

iv
Opinion by
Administrative Judge Peacock
Armed Services Board of Contract Appeals
entered November 15, 2019 ........................... 3a
Opinion by
Administrative Judge Peacock
on Appellant's Motion to Recuse
Armed Services Board of Contract Appeals
entered September 30, 2016 ...................... 129a
Government Exhibit 138
undated Powell Summary ......................... 148a

v
TABLE OF AUTHORITIES
Page(s)
Cases:
3M v. Pribyl,
259 F.3d 587 (7th Cir. 2001) ............................... 14
Action Support Services Corp.,
ASBCA Nos. 46524, 00-1 BCA ¶ 30,701 ............... 8
Cosmo Construction Co. v. United States,
451 F.2d 602 (Fed Cir. 1971) .............................. 11
Ship Analytics International, Inc.,
ASBCA No. 50914, 01-1 BCA ¶ 31,253............... 11
Tewari De-Ox Systems, Inc. v.
Mountain States/Rosen, L.L.C.,
637 F.3d 604 (5th Cir. 2011) ............................... 14
Statutes:
15 U.S.C. § 1601 et seq................................................ 2
28 U.S.C. § 1254.......................................................... 1
28 U.S.C. § 1491.......................................................... 1
41 U.S.C. § 1702.......................................................... 2
41 U.S.C. § 7100 et seq................................................ 1
41 U.S.C. § 7101.......................................................... 1
U.S. Constitutional Provisions:
U.S. Const. amend. V ....................................... 2, 6, 11
Regulations:
48 C.F.R. § 4252.227 ................................................... 2

1
PETITION FOR WRIT OF CERTIORARI
Petitioner, CANVS Corporation, respectfully
requests that the Court issue a writ of certiorari to
review the judgement of the United States Court of
Appeals for the Federal Circuit in this case.
OPINIONS BELOW
The Court of Appeals for the Federal Circuit
affirmed judgement per curiam without opinion on
January 9, 2019. That judgement is not reported.
The Armed Services Board of Contract Appeals
issued its Opinion on September 6, 2018. The
Opinion was entered into the public record of the
ASBCA Board proceedings as the final decision and
judgement on September 15, 2018. That Decision is
not reported.
JURISDICTION
This Court has jurisdiction over this Petition
pursuant to 28 U.S.C. § 1254.
This Petition is
timely filed. The Court of Appeals for the Federal
Circuit has exclusive jurisdiction over appeals from
the Armed Services Board of Contract Appeals
(ASBCA) pursuant to 41 U.S.C. § 7101. The ASBCA
had jurisdiction to hear the contract appeal of
CANVS under 41 U.S.C. § 7100 et seq., and 28
U.S.C. § 1491. The ASBCA entered a Final Written
Opinion denying relief under the contract appeal on
September 6, 2018 and entered the Opinion and
Order on September 15, 2018. On November 9, 2018,
CANVS timely filed its Notice of Appeal to the
CAFC.

2
CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED
United States Constitution, Fifth Amendment:
"No person shall be . . . deprived of life, liberty, or
property, without due process of law; nor shall
private property be taken for public use, without just
compensation."
In addition, relevant parts of US Code Title 41
Public Contracts § 1702. Chief Acquisition Officers
and Senior Procurement Executives. and 15 U.S.C. §
1601 et seq., and 48 C.F.R. Federal Acquisition
regulations § 4252.227 Contract Management /
Contract Administration and Audit Services, are
reprinted in the accompanying Appendix.
INTRODUCTION
Small business and innovation are the
cornerstones to freedom and prosperity in America.
The government should promote and protect these
ideals, not subvert and undermine them. Small
businesses, especially in a highly competitive
technology-driven field like the defense industry,
rely upon innovation and trade secrets for their
survival. When a veteran owned small business has
its life blood drained away by improper public
disclosure, the government should not use protracted
proceedings and false procedural technicalities to
deprive that company of its opportunity to present
evidence of government wrongdoing.
In 2005, the government breached its contract
with CANVS. CANVS lost Ten Million Dollars of
funding and was crippled.
CANVS requested
redress from the Department of Defense, and
implored the Inspector General of The United States

3
and Congress to assist. CANVS filed appropriate
contract dispute notices and followed procedures,
without any results. In 2011, having exhausted all
avenues for remedy with the Department of Defense,
CANVS was forced to file an appeal of its dispute
with the Armed Services Board of Contract Appeals
(ASBCA).
For more than a decade after the improper
disclosure which crippled CANVS, CANVS continued
to labor under the burden of delay and obfuscation
by the government.
CANVS had run out of
resources to continue its pursuit of redress and
sought relief from the Federal Courts in the form of
a Petition for Habeas Corpus filed in 2018. The
request was denied by the Court of Appeals for the
Federal Circuit, stating "we cannot say that any
delay in reaching a final decision is so egregious as
to warrant mandamus." The Supreme Court needs
to weigh in and establish that any denial of due
process is egregious.
Small business should be entitled to rapid
resolution of disputes and should not have to survive
the attrition of a sufficiently egregious system.
CANVS found the will to continue on and continued
to play by the rules, as biased and unfair as they are.
However, the ASBCA did not play by their own
rules.
The ASBCA bifurcated its proceedings into two
parts (1) liability (i.e did the Government breach the
contract with CANVS) and (2) damages (i.e. what
harm if any was caused). A liability hearing was
held, with documentary evidence and live testimony.
The breach by the Government was established in
phase 1, but relief was denied without even

4
proceeding to phase 2. The Government had already
deposed CANVS's primary damages witness, Mr.
Chris Powell, before the liability trial. During the
trial on liability, the Government entered a place
holder document for damages, called the "Powell
Summary, as Government Exhibit G318 " [See
appendix, 148a - 154a]. The parties agreed that the
Powell document would be accepted into evidence
and that it needed no authentication. The ASBCA
accepted the document into evidence.
Thus the
existence, but not the quantum of damages was
established during the evidentiary hearing on
liability and became an undisputed part of the
record at the ASBCA.
The administrative law judge overseeing the
ASBCA evidentiary hearing actively prevented
CANVS from eliciting any additional damages
testimony, because the first trial was only about
liability. At the conclusion of the liability phase, the
presiding administrative law judge stated that he
had formed a preliminary opinion as to a lack of
substantial damages. When challenged on the issue
of pre-forming an opinion on damages prior to
CANVS having an opportunity to present damages,
(i.e. prejudice) the ALJ stated in a written opinion:
"The scope of the trial encompassed solely
entitlement and jurisdictional issues. The Board has
not received any quantum evidence and perforce has
formed no opinions on the detail of appellant's
quantum methodology." [129a -130a] The ASBCA
thus confirmed for a third time that the only issue
before the ASBCA was liability, not damages.
After two years of post-trial briefing, the ASBCA
determined that the Government had indeed made

5
an improper disclosure and breached the contract:
[107a - 108a]
There is no dispute that the APBI
Poster
contained
technical
data,
including four photographs which
originated from monthly report No. 8
(findings 112, 137). Appellant did not
expressly consent or approve of the
display of the APBI Poster (finding
125).
However, the ASBCA ignored the bifurcation and
improperly decided that there was no reason to
reach any decision on liability because damages were
not established prior to the damages phase of the
proceedings. The ASBCA denied relief based upon a
lack of damages evidence, during the liability portion
of the proceedings, without conducting any
evidentiary hearing on damages: [108a]:
For purposes of this opinion, we
determine that resolution of the parties'
conflicting contentions regarding these
issues [the "bundle of rights"] is
unnecessary to decide the merits of
these appeals. Assuming, arguendo,
that the government did not technically
comply with the 7018 clause when it
displayed the APBI Poster at the SOF /
APBI conference, appellant has not
demonstrated, by a preponderance of
the evidence, that it suffered some
injury or damages and that any such
alleged damages claimed were caused
by the government's disclosure to
support its breach claim.

6
CANVS had no burden of establishing damages
and causation of such damages by any
preponderance of evidence during the liability
portion of a bifurcated trial. CANVS at most had to
establish that damages were not purely illusory. The
stipulated Powell Statement established the
existence of non-illusory damages, as acknowledged
by the ASBCA at trial and post-trial.
CANVS was deprived of its valuable intellectual
property without due process. CANVS seeks the
opportunity to continue the proceedings before the
ASBCA in order to be afforded the fair and full
opportunity to present quantitative damages
evidence and to have that evidence fully and fairly
considered by the ASBCA as is CANVS's
constitutional right under the Fifth Amendment.
STATEMENT OF THE CASE
This is a breach of contract dispute. CANVS
provided confidential materials to the US
Government under the terms of an SBIR Phase I
and Phase II contract which provided "Limited
Rights" to the Government. The ASBCA found that
the facts were undisputed that the Government,
without notice to nor permission from CANVS,
disclosed CANVS's properly marked confidential
materials in public. [107a]:
Paragraph (a)(l9) of the 7018 clause
defined technical data, in part, as
"recorded information, regardless of the
form or method of the recording, of a
scientific or technical nature." There is
no dispute that the APBI Poster
contained technical data, including four
photographs which originated from

7
monthly report No. 8 (findings 112,
137). Appellant did not expressly
consent or approve of the display of the
APBI Poster (finding 125).
The Government introduced a document at trial
designated as trial exhibit G138, the Powell Written
Statement [148a-154a] which evidenced damages in
the loss of a pre-public disclosure commitment from
Patriot Performance Materials of $5,000,000 to
acquire rights to the subject matter of the SBIR
project: [150a]
PPM took the due diligence process
very seriously as we were in
negotiations with CANVS to obtain
exclusive rights to the CANVS Color
Night Vision technology for an upfront
payment of $5,000,000 (in recognition of
the work already done by CANVS
entirely at CANVS expense during the
development of the capability) and 10%
of future sales.
The Government's document G138 also evidenced
that the commitment was withdrawn after the
Government's
unauthorized
public
disclosure
destroyed the value of CANVS: [153a]
In the end PPM made a business
decision to not acquire the CANVS
technology because of the exposure that
the NVESD/SOCOM release created
was insurmountable. In addition, our
perception that the activity was
intentional indicated a significant
additional hurdle to launch of this
technology. PPM did not have the

8
financial ability to initiate a multi-year,
multi-million dollar lawsuit to defend
the CANVS technology and to hold
NVESD/SOCOM accountable for the
breach of Data Rights.
CANVS's President Mr. Walkenstein entered
testimony at trial in support of both of these issues.
The Government did not dispute the disclosure of
technical data marked as proprietary by CANVS and
did not present any evidence to rebut the Powell
written statement nor the Walkenstein testimony
confirming the written statement that evidenced
that damages were not speculative.
Thus CANVS established the elements necessary
for a finding of entitlement, (i) the undisputed fact
that marked information was disclosed without
authorization (ii) the unrebutted fact that damages
occurred (i.e. at least the loss of $5,000,000 in
capital) and (iii) causation, the loss of investment
was the direct and proximate result of the
Government's actions. See Action Support Services
Corp., ASBCA Nos. 46524, 46800, 00-1 BCA ¶ 30,701
at 151,682 (appellant, as proponent of its breach
claim, must prove the nature and extent of
government's breach, the damages suffered, and the
causal link between the government's breach and
claimed damages).
The question remaining for Trial was: did the
Government have the right to make the public
disclosure without the consent of CANVS? The
answer to that remaining question is no, the
Government had no right to disclose. However, the
ASBCA refused to reach that issue, instead denying
relief for lack of damages, despite the fact that the

9
ASBCA had never conducted the damages portion of
the trial. [108a]:
For purposes of this opinion, we
determine that resolution of the parties'
conflicting contentions regarding these
issues [the "bundle of rights"] is
unnecessary to decide the merits of
these appeals. Assuming, arguendo,
that the government did not technically
comply with the 7018 clause when it
displayed the APBI Poster at the SOF /
APBI conference, appellant has not
demonstrated, by a preponderance of
the evidence, that it suffered some
injury or damages and that any such
alleged damages claimed were caused
by the government's disclosure to
support its breach claim.
CANVS was denied a full and fair hearing.
CANVS developed all of the proprietary data
with its own funding prior to the start of any SBIR
contract. Thus none of the technical data was
"generated under the contract." All of the technical
data is found in the CANVS Phase I proposal,
including a working prototype and a red tube
diagram dated before the start of any SBIR project.
The Technical data was properly marked in the
proposal and in every document in the SBIR project
and CANVS explicitly only granted "Limited Rights."
Thus the Government had no right to disclose.
The ASBCA recognized that a determination of
rights was required, but declined to make any
determination and thus reached its Opinion without
proper findings and contrary to the facts and law.

10
The ASBCA, having found that material designated
as proprietary by CANVS was publically disclosed
without
consent,
also
recognized
that
a
determination of the parties dispute regarding the
"bundle of rights" granted to the Government
(limited or unlimited) would form a basis for the
issue of liability. [108a]:
Appellant argues that, by disclosing its
technical data, the government did not
comply with the 7018 clause. The
parties have significant disagreement
over the proper interpretation of the
clause, including, but not limited to,
what bundle of rights to the data the
government received; whether the
restrictive markings in monthly report
No. 8 were non-conforming; and
whether the data was first "generated"
under the contract as that term is
defined under the clause.
However, the ASBCA declined to make any findings
on this dispute about the "bundle of rights" the
"conforming markings" or the "first generated" issue,
all fully briefed by CANVS.1 Instead of determining
these relevant and important issues in its Opinion,
the ASBCA declined to make any determination of
liability/entitlement and instead focused on an issue

Although the ASBCA stated that it was not making these
determinations, it made finding of fact #67 [see 34a] that
determined markings were conforming, and findings of fact #68
- #71 [35a - 37a] which acknowledge that the disputed elements
were developed by CANVS before CANVS received any SBIR
finds.

1

11
not before the board in its limited trial part 1, i.e.
quantum of damages: [108a]:
For purposes of this opinion, we
determine that resolution of the parties'
conflicting contentions regarding these
issues [the "bundle of rights"] is
unnecessary to decide the merits of
these appeals. Assuming, arguendo,
that the government did not technically
comply with the 7018 clause when it
displayed the APBI Poster at the SOF /
APBI conference, appellant has not
demonstrated, by a preponderance of
the evidence, that it suffered some
injury or damages and that any such
alleged damages claimed were caused
by the government's disclosure to
support its breach claim.
The ASBCA deprived CANVS of due process in
violation of the Fifth Amendment by reaching its
erroneous opinion on damages based on an error of
law and based upon ignoring unrebutted evidence in
the record. CANVS met the standard for an ASBCA
Trial in which Quantum of Damages are excluded,
set by Ship Analytics International, Inc., ASBCA No.
50914 and Cosmo Construction Co. v. United States,
451 F.2d 602, i.e to establish that: ". . . some damage
was incurred to support a finding of liability." Ship
Analytics International, Inc., ASBCA No. 50914, 01-1
BCA ¶31,253 at 154,353, citing Cosmo Construction
Co. v. United States, 451 F.2d 602, 605 (Ct. Cl. 1971).
Cosmo sets the level of evidence at ". . . only
sufficient to demonstrate that the issue of liability is
not purely academic; that some damage has been
incurred. . . " 451 F.2d 602, 605 (Fed Cir. 1971).

12
The ASBCA instead created a higher standard of
". . . appellant has not demonstrated, by a
preponderance of the evidence, that it suffered some
injury or damages and that any such alleged
damages claimed were caused by the government's
disclosure to support its breach claim." Despite the
application of an improper higher standard,
CANVS's evidence satisfied that higher standard,
and yet the ASBCA ignored the evidence submitted
as to damages caused by the public disclosure.
In addition to setting an improper standard and
ignoring evidence that was un-rebutted at trial, the
ASBCA Judge and the Government's Trial Counsel,
repeatedly misdirected petitioner and prevented
Petitioner from entering additional evidence of
damages, stating that further damages testimony
was not needed for the liability trial, thus
acknowledging that the threshold had already been
met. (trial transcript)
MR. CHIANG (US Counsel): Objection,
Mr. Powell is not here. This is really
moving into the damages phase.
JUDGE PEACOCK: Yes, I'm tending to
agree with Mr. Chiang now. Let me just
say this, you put this document in the
record, Mr. Chiang. Okay? And, you
know, it's a Government document. But
I want the testimony purely to relate to
entitlement, not to potential offers or -Mr.
Walkenstein's
testimony
and
the
Government
Document
G138
[148a-154a]
demonstrate that CANVS was to receive a
$5,000,000 investment of capital, however Mr.
Powell cancelled the deal after the public disclosure

13
of CANVS' proprietary data by the Government.
The loss of capital prevented CANVS from moving
forward due to a lack of funds for production. The
Government elicited no testimony to rebut the
evidence submitted by CANVS which clearly
established the existence, but not the full quantum,
of damages. The fact that the Government's counsel
entered the documents that established existence,
but objected to any elaboration of quantum,
demonstrates and establishes that Government
counsel conceded the existence of damages at trial
and was only objecting to quantum.
The ASBCA cannot limit the evidence submitted
at trial, preclude greater examination into the
details of the documents through testimony and then
sua sponte post trial, reverse its own position and
find that a "preponderance of evidence was not
submitted." The un-rebutted testimony established
that "some damage occurred" and that "the issue of
liability is not purely academic" and thus satisfied
the standard for a non-damages entitlement Trial at
the ASBCA.
REASONS FOR GRANTING THE PETITION
CANVS is entitled to a full and fair hearing of its
rights. CANVS is entitled to a determination of the
"bundle of rights" and is entitled to presentation of
damages evidence in a properly conducted damages
hearing.
A. THE CONTRACT
As with any contract dispute, the place to start is
with an understanding of the terms of the contract.
As set forth above, the ASBCA found that the
Government violated the terms of the contract and

14
the associated FARS.
Based upon the
contemporaneous actions of the government
employees during the contract, they relied upon
CANVS for confidentiality designations made by
CANVS.
The Government's disregard of these
designations and resultant public disclosure was
inexcusable. The Government not only understood
the proprietary nature of the materials, they also
understood the value of the materials. In early
2005, CANVS's Color Night Vision Goggles were
twice recognized as an SBIR Success Story.
B. ASBCA OPINION
The ASBCA needed to determine the scope of
rights delivered and retained under the SBIR
Contract. Without such a determination, there is no
contractual, statutorial or Regulatory framework to
determine breach and liability.
However, the
ASBCA did not reach a determination on the "bundle
of rights" granted to the Government by the SBIR
Contract and incorporated FARS.
The ASBCA's
Opinion instead improperly substitutes a misplaced,
quasi analysis based on trade secret law, relying on
7th and 5th Cir. case law. [119a]:
Mobile Medical, 95 Fed. Cl. at 734
(citing 3Mv. Pribyl, 259 F.3d 587, 59596 (7th Cir. 2001)) (combination of
publicly known characteristics and
components that is unique and affords a
competitive advantage is protectable);
see also Tewari De-Ox Systems, Inc. v.
Mountain States/Rosen, L.L.C., 637
F.3d
604,613
(5th
Cir.
2011)
(combination of disclosed technologies
could constitute a trade secret).

15
Both of these cases were based upon the existence of
a "trade secret." Neither case involved a contract
with specific provisions prohibiting disclosure of
data regardless of its "trade secret" nature, and
neither case was controlled by the FAR regulations
which precludes disclosure of marked material
without any requirement that the data be of a trade
secret nature.
Trade secret law is a very narrow area of law
that is not applicable to an SBIR contract. The rules
and regulations surrounding SBIR contracting and
funding were established to fund small business and
allow the Government to benefit from new ideas, and
to have small business make full and open
disclosures with assurances of protected confidence,
while protecting small business from Government
exploitation and public exposure of its core
technologies and data.
The ASBCA, having reached an incorrect
conclusion on the issue of evidence regarding the
existence of damages declined to decide the issue of
rights granted, despite the fact that the ASBCA
found:
(i) that the Government knew that the poster
contained proprietary information see finding
of fact #119, [58a]
(ii) that Mr. Walkenstein specifically
identified and specified removal of the
proprietary information, see finding of fact
#120, and [58a]
(iii) that the Government publicly displayed
the poster including the identified proprietary
information without "receiving the express

16
consent from appellant to display the APBI
poster." see finding if fact #125. [61a]
The ASBCA then ignored CANVS's designation of
"proprietary data" which is the sole requirement to
avoid disclosure under both the contract and the
FARS.
If the Government believed that some
markings may be incorrect, the designations by
CANVS can only be challenged during the term of
the contract and only through a formal process that
provides notice to CANVS. The Government raised
no objections during the term of the contract nor for
the subsequent five years.
The ASBCA improperly allowed the Government
to
completely
disregard
these
statutory
requirements.
CANVS explicitly restricted the use of technical
data to Limited Rights, as set forth in the terms of
the contract, in the manner specified by the FARS.
[108a]:
Assuming,
arguendo,
that
the
government did not technically comply
with the 7018 clause when it displayed
the APBI Poster at the SOF/APBI
conference,
appellant
has
not
demonstrated, by a preponderance of
the evidence, that it suffered some
injury or damages and that any such
alleged damages claimed were caused
by the government's disclosure to
support its breach claim.
This assumption is correct and thus dispositive of
the issue of breach because there is no requirement
of "trade secret" or "novelty" to the information that

17
cannot be publically disclosed when the scope of
rights is "Limited Rights."
In an SBIR contract, the appropriate section for
setting forth claims to confidentiality and
restrictions on the Government's use of confidential
information is Section K of the contract. The
Government was restricted from any use of any of
the CANVS technical data: "Restricted, no disclosure
or use without a license from CANVS Corporation."
The basis for the assertion of restriction was:
"Developed exclusively at offeror's private expense."
Thus the rights granted to the Government were
clearly delimited as "Limited Rights" even though
the term "restricted" was used by CANVS.
The
Government does not dispute the markings.
Claiming that technical data does not rise to the
level of a trade secret or is based on known science,
or could have been developed independently by
others, is not an exception and does not allow public
disclosure by the Government.
The Government unquestionably had only
Limited Right and breached the restrictions on
disclosure of CANVS Technical Data. Each page of
the CANVS documentation was marked. The
restriction was stated as: "Restricted, no disclosure
or use without license from CANVS Corporation."
and "This is a CANVS Corporation Confidential
Document. It is not to be retransmitted without
expressed written consent of CANVS Corporation."
C. RELEVANT FACTS
The NVESD Booth:
As testified to by Mr. Walkenstein, President of
CANVS, he attended the SOF Show in Tampa and

18
took the photographs of the NVESD Booth and the
accused poster at the trade show on June 8, 2005. In
fact, the ASBCA in its Opinion acknowledges that
the Government disclosed the marked technical data
without authorization. There is no dispute that the
violation occurred, there are only improper excuses
for the violations.
There is no dispute that the Poster as
photographed by Mr. Walkenstein was displayed,
along with a CANVS Color Night Vision Goggle
(CCNVG), at the NVESD booth at the FOS show in
Tampa in June 2005.
These facts have been
corroborated by several witnesses, and accepted by
the ASBCA: [107a - 108a]:
Paragraph (a)(l9) of the 7018 clause
defined technical data, in part, as
"recorded information, regardless of the
form or method of the recording, of a
scientific or technical nature." There is
no dispute that the APBI Poster
contained technical data, including four
photographs which originated from
monthly report No. 8 (findings 112,
137). Appellant did not expressly
consent or approve of the display of the
APBI Poster (finding 125).
D. IMPROPER DISCLOSURES IN THE
POSTER
As detailed in the Hearing testimony of Mr.
Walkenstein, Mr. Gillespie, Mr. Hosek and others,
as detailed in the Proposed Findings of Facts
detailed in the ASBCA Opinion, and as concluded by
the ASBCA as cited above, the publically disclosed

19
poster disclosed a number of items of Technical Data
that were restricted from disclosure.
The fact that the publically exhibited information
came from CANVS technical data is not in dispute,
see ASBCA Opinion, quoted in several instances
above.
The Government does not dispute that all of the
information in the accused SOF Poster came from
CANVS. The Government has never presented nor
proposed any other source for any part of the
Technical Data disclosed and publicized by the SOF
Poster.
The Government's documents and witness
confirm that the SOF Poster was made from CANVS
data. The evidence also demonstrates that the
Government employees at SOCOM and at NVESD
knew that the materials being used included CANVS
proprietary information and knew that the materials
needed to be vetted by CANVS before any public
disclosure.
CONCLUSION
CANVS has a right to a full and fair opportunity
to have its rights adjudicated. The Government and
the Armed Services Board of Contract Appeals
denied CANVS's right to due process.
There is no legitimate factual dispute between
the parties. CANVS fully developed the color night
vision goggle and manufactured a working prototype
which included tubes and different colored filters
using its own funds, nothing of the disclosed
technical data was created during the SBIR II
Project. The confidential technical materials were
presented with goggles in 2001 and the prior four

20
years of work by CANVS, as acknowledged in
findings of fact #72 through #76 [37a - 40a] were all
developed before any SBIR contract and include all
of the technical data improperly publically disclosed
by the Government at the SOF conference, including
the use of red phosphor tubes, contrary to the
supposition of SBIR.
The Technical Data was provided by CANVS in
confidential proposals and briefings prior to the first
SBIR Phase I contract. This Technical Data was
thus developed exclusively with private funds and
thus qualifies for Limited Rights protection.
This Technical Data also forms the basis for the
functioning of the Goggles delivered under the SBIR
II Contract. This Technical Data was repeated
throughout the 15 Reports of the SBIR II contract
and is also the Technical Data that was improperly
publically disclosed in the SOF Poster in June 2005.
There is no dispute that CANVS created the
Technical Data, marked its Reports, and that
SOCOM and NVESD disclosed some of CANVS's
marked Technical Data to the public at the SOF
conference in Tampa in June 2005.
The Government does not deny that it disclosed
CANVS Technical Data in a Conference open to nonGovernment personnel.
The Government cannot deny that the Powell
Statement [148a - 154a] establishes the threshold for
damages and that this matter should have proceeded
to the damages trial.
For the reasons set forth above, this Petition
should be granted and CANVS should be allowed to
advocate for its right to due processes and for the

21
rights of all
businesses.

other

similarly

situated

small

Respectfully Submitted
By:

/s/ Joseph J. Zito
Joseph J. Zito
Counsel of Record
DNL ZITO CASTELLANO
1250 Conn. Avenue, N.W.
Suite 700
Washington, DC 20036
(202) 466-3500
jzito@dnlzito.com
Counsel for Petitioner

